No. ______
In the

Supreme Court of the United States
__________________
GREAT LAKES MINERALS, LLC,
Petitioner,
v.
STATE OF OHIO, JOSEPH W. TESTA, AND
JEFF MCCLAIN, TAX COMMISSIONER OF OHIO,
Respondents.
__________________
On Petition for Writ of Certiorari to the
Supreme Court of Kentucky

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
THOMAS D. BULLOCK
Counsel of Record
ROBERT V. BULLOCK
J. ROSS STINETORF
BULLOCK & COFFMAN, LLP
234 North Limestone
Lexington, Kentucky 40507
Telephone: (859) 225-3939
Facsimile: (859) 225-5748
tbullock@bullockcoffman.com
rstinetorf@bullockcoffman.com
Counsel for the Petitioner
July 10, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
I.
Whether the Court’s decision in Franchise
Tax Board of California v. Hyatt, 139 S.Ct. 1485 (2019)
extends a state’s sovereign immunity to declaratory
and/or injunctive relief and to individuals sued in their
individual capacity.
II.
Whether an individual or business that does
not have sufficient minimum contacts to be subject to
the jurisdiction of a foreign state may seek declaratory
or injunctive relief within their home state.
III.
Whether a state court can employ principles
of comity to dismiss an action properly brought
pursuant to 42 U.S.C.A. 1983 against a state official in
his individual capacity.

ii
RULE 29.6 CORPORATE DISCLOSURE
STATEMENT
Petitioner, Great Lakes Minerals, LLC, pursuant to
Rule 29.6 states that it has no parent company and
that no publicly held company owns 10% or more of its
stock.
STATEMENT OF RELATED PROCEEDINGS
Greenup County, Kentucky Circuit Court action: Great
Lakes Minerals, LLC v. Joseph W. Testa, Tax
Commissioner of Ohio, et al., Case No. 17-CI-00311;
Kentucky Court of Appeals (which was then
transferred to the Kentucky Supreme Court): State of
Ohio, et al. v. Great Lakes Minerals, LLC, Case No.
2018-CA-000484; and
Kentucky Supreme Court appeal: State of Ohio and
Joseph W. Testa, Tax Commissioner of Ohio v. Great
Lakes Minerals, LLC, Case No. 2018-SC0001610-T.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
RULE 29.6 CORPORATE DISCLOSURE
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY AND RULE PROVISIONS
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE WRIT. . . . . . . . 13
I.

THE COURT SHOULD GRANT REVIEW
TO DETERMINE IF HYATT EXTENDS A
STATE’S SOVEREIGN IMMUNITY TO
DECLARATORY AND/OR OTHER
EQUITABLE RELIEF AS WELL AS THE
INDIVIDUAL ACTING IN HIS
INDIVIDUAL CAPACITY. . . . . . . . . . . . . . . 13
A. Kentucky Law . . . . . . . . . . . . . . . . . . . . . 14
B. Ohio Law . . . . . . . . . . . . . . . . . . . . . . . . . 15
C. Federal Law . . . . . . . . . . . . . . . . . . . . . . . 16
D. Franchise Tax Board of California v.
Hyatt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
E. Kentucky Civil Rule 60.03 . . . . . . . . . . . . 21

iv
II.

THE COURT SHOULD GRANT REVIEW
BECAUSE A STATE MAY NOT REFUSE
TO ENTERTAIN A PROPERLY PLEAD
FEDERAL CLAIM. . . . . . . . . . . . . . . . . . . . . 22

III.

THE COURT SHOULD GRANT REVIEW
BECAUSE THE STATE OF OHIO AND ITS
TAX COMMISSIONER’S ACTIONS WILL
DETRIMENTALLY AFFECT BUSINESSES
ACROSS THE UNITED STATES . . . . . . . . 24

IV.

THE COURT SHOULD GRANT REVIEW
BECAUSE THE OHIO CAT IS
UNCONSTITUTIONALLY LEVIED ON
GREAT LAKES . . . . . . . . . . . . . . . . . . . . . . . 26

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
APPENDIX
Appendix A Opinion of the Kentucky Supreme
Court, State of Ohio and Joseph W.
Testa, Tax Commissioner of Ohio v.
Great Lakes Minerals, LLC, 597
S.W.3d 169 (Dec. 19, 2019) . . . . . . App. 1
Appendix B Order of the Circuit Court of the
Commonwealth of Kentucky, Greenup
County, Denying Respondent Ohio
and Commissioner Testa’s Motion to
Dismiss, Great Lakes Minerals, LLC v.
Joseph W. Testa, Tax Commissioner of
Ohio, et al., Case No. 17-CI-00311
(Feb. 16, 2018) . . . . . . . . . . . . . . App. 12

v
Appendix C Order of the Kentucky Supreme Court
Denying Rehearing and Modification,
State of Ohio and Joseph W. Testa,
Tax Commissioner of Ohio v. Great
Lakes Minerals, LLC, Case No.
2018-SC-000161-TG
(Apr. 30, 2020) . . . . . . . . . . . . . . App. 14
Appendix D Order of the Kentucky Supreme Court
Granting Respondent Ohio and
Commissioner Testa’s Motion to
Transfer to the Kentucky Supreme
Court, State of Ohio and Joseph W.
Testa, Tax Commissioner of Ohio v.
Great Lakes Minerals, LLC, Case No.
2018-SC-000161-T
(June 14, 2018) . . . . . . . . . . . . . . App. 16
Appendix E Order of the Kentucky Supreme Court
Holding the Action in Abeyance
Pending Final Determination of
Franchise Tax Bd. of California v.
Hyatt, 138 S. Ct. 2710, No. 17-1299
(2018), State of Ohio and Joseph W.
Testa, Tax Commissioner of Ohio v.
Great Lakes Minerals, LLC, Case No.
2018-SC-000161-T
(Mar. 14, 2019) . . . . . . . . . . . . . . App. 18
Appendix F Petitioner’s Complaint and Petition for
Declaratory Judgment, Great Lakes
Minerals, LLC v. Joseph W. Testa and
State of Ohio, Case No. 17-CI-00311
(July 10, 2017). . . . . . . . . . . . . . . App. 20

vi
TABLE OF CITED AUTHORITIES
CASES
American Oil Co. v. Neill,
380 U.S. 451 (1965). . . . . . . . . . . . . . . . . . . . 26, 27
Berthelsen v. Kane,
759 S.W.2d 831 (Ky. App. 1988). . . . . . . . . . . . . 10
Bowen v. Massachusetts,
487 U.S. 879 (1988). . . . . . . . . . . . . . . . . . . . . . . 16
Cirino v. Ohio Bureau of Workers’ Compensation,
106 N.E.3d 41 (Ohio 2018) . . . . . . . . . . . . . . . . . 15
Cleveland v. Ohio Bureau of Workers’
Compensation, 2020 WL 557311
(Ohio Feb. 5, 2020) . . . . . . . . . . . . . . . . . . . . . . . 16
Columbus Southern Power Co. v. Ohio Dept. of
Transp., 579 N.E.2d 735 (Ohio App. 1989) . . . . 15
Commonwealth v. Kentucky Retirement Systems,
396 S.W.3d 833 (Ky. 2013) . . . . . . . . . . . . . . 14, 15
Cristino v. Ohio Bureau of Workers’ Comp.,
2014 WL 1347158
(Ohio App. Mar. 31, 2014) . . . . . . . . . . . . . . 15, 16
Cty. Employees Retirement System v. Frontier
Housing, Inc.,
536 S.W.3d 712 (Ky. App. 2017). . . . . . . . . . . . . 15
Fair Assessment in Real Estate Ass’n, Inc. v.
McNary, 454 U.S. 100 (1981) . . . . . . . . . . . . . . . 23

vii
Felder v. Casey,
487 U.S. 141 (1988). . . . . . . . . . . . . . . . . . . . 22, 23
Franchise Tax Bd. of California v. Hyatt,
129 S.Ct. 1485 (2019) . . . . . . . . . . . . . . . . . . . . . 12
Franchise Tax Bd. of California v. Hyatt,
138 S.Ct. 2710, No. 17-1299 (2018) . . . . . . . 12, 27
Franchise Tax Board of California v. Hyatt,
139 S.Ct. 1485 (2019) . . . . . . . . . . . . . . . . . passim
Friedman v. Johnson,
480 N.E.2d 82 (Ohio 1985) . . . . . . . . . . . . . . . . . 15
Hafer v. Melo,
502 U.S. 21 (1991). . . . . . . . . . . . . . . . . . . . . . . . 17
Haywood v. Drown,
556 U.S. 729 (2009). . . . . . . . . . . . . . . . . . . . 22, 23
Helms v. Ohio EPA,
2015 WL 6549331 (Ohio Ct. Claims
Oct. 23, 2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Help the Children v. Dep’t of Liquor Control,
1996 WL 11280 (Ohio App. Jan. 11, 1996) . . . . 16
Howlett v. Rose,
496 U.S. 356 (1990). . . . . . . . . . . . . . . . . . . . 17, 22
Interim Healthcare of Columbus, Inc. v. State
Dep’t of Admin., 2008 WL 2025153
(Ohio App. May 6, 2008) . . . . . . . . . . . . . . . . . . . 16
International Harvester Co. v. Dept. of Treasury,
322 U.S. 340 (1944). . . . . . . . . . . . . . . . . . . . . 7, 25

viii
Johnson v. Fankell,
520 U.S. 911 (1997). . . . . . . . . . . . . . . . . . . . . . . 23
Kentucky v. Graham,
473 U.S. 159 (1985). . . . . . . . . . . . . . . . . . . . . . . 17
Leeke v. Timmerman,
454 U.S. 83 (1981). . . . . . . . . . . . . . . . . . . . . . . . 17
Lewis v. Clarke,
137 S.Ct. 1285 (2017) . . . . . . . . . . . . . . . . . . 17, 22
Martinez v. State of California,
444 U.S. 277 (1980). . . . . . . . . . . . . . . . . . . . . . . 23
MCI Telecommunications Corp. v. Limbach,
625 N.E.2d 597 (Ohio 1994) . . . . . . . . . . 10, 11, 23
MeadWestvaco Corp. ex rel. Mead Corp. v. Illinois
Dept. of Revenue, 553 U.S. 16 (2008) . . . . . . . . . 26
Miller Brothers Co. v. Maryland,
347 U.S. 340 (1954). . . . . . . . . . . . . . . . . . 7, 25, 26
Nevada v. Hall,
440 U.S. 410 (1979). . . . . . . . . . . . . . . . . . . . . . . 18
Nevada v. Hicks,
533 U.S. 353 (2001). . . . . . . . . . . . . . . . . . . . . . . 22
North Carolina Dept. of Revenue v. The Kimberley
Rice Kaestner 1992 Family Trust,
139 S.Ct. 2213 (2019) . . . . . . . . . . . . . . . . . . . . . 26
Oakar v. Ohio Dept. of Mental Retardation,
623 N.E.2d 1296 (Ohio App. 1993) . . . . . . . . . . . 15

ix
Ohio Hosp. Assn. v. Ohio Dept. of Human Services,
579 N.E.2d 695 (Ohio 1991) . . . . . . . . . . . . . . . . 16
Perez v. Ledesma,
401 U.S. 82 (1971). . . . . . . . . . . . . . . . . . . . . . . . 17
Racing Guild, Local 304 v. Ohio State Racing
Comm’n, 503 N.E.2d 1025 (Ohio 1986) . . . . . . . 15
Santos v. Ohio Bureau of Workers’ Compensation,
801 N.E.2d 441 (Ohio 2004) . . . . . . . . . . . . . . . . 16
Scripto, Inc. v. Carson,
362 U.S. 207 (1960). . . . . . . . . . . . . . . . . . . . . . . 26
Skelly Oil Co. v. Phillips Petroleum Co.,
339 U.S. 667 (1950). . . . . . . . . . . . . . . . . . . . . . . 17
South Dakota v. Wayfair, Inc.,
138 S.Ct. 2080 (2018) . . . . . . . . . . . . . . . . . . . 7, 25
State ex rel. Gelesh v. State Med. Bd.,
874 N.E.2d 1256 (Ohio App. 2007) . . . . . . . . . . . 15
Timmerman v. Brown,
528 F.2d 811 (1975). . . . . . . . . . . . . . . . . . . . . . . 17
Victorian’s Midnight Café L.L.C. v. Goodman,
2016 WL 6994983 (Ohio App.
Nov. 29, 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Zinermon v. Burch,
494 U.S. 113 (1990). . . . . . . . . . . . . . . . . . . . 17, 22
STATUTES
28 U.S.C. § 1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . passim

x
K.R.S. § 49.250 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
K.R.S. § 418.040 . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 14
K.R.S. § 418.080 . . . . . . . . . . . . . . . . . . . . . . . . . 11, 14
O.R.C. 5751.01 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
O.R.C. 5751.02 . . . . . . . . . . . . . . . . . . . . . . . 3, 4, 9, 25
O.R.C. 5751.09 . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 23
O.R.C. 5751.033 . . . . . . . . . . . . . . . . . . . . . . . 4, 5, 8, 9
RULE
CR 60.03 . . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 11, 13, 21

1
OPINIONS BELOW
The Greenup Circuit Court’s Order Denying
Respondent’s Motion to Dismiss, Great Lakes Minerals,
LLC v. Joseph W. Testa, Tax Commissioner of Ohio, et
al., Case No. 17-CI-00311 (Feb. 16, 2018) is unreported
and is reproduced in the Appendix hereto (“App.”), App.
12–13. The Kentucky Supreme Court Order Granting
Respondent’s Motion to Transfer its Interlocutory
Appeal to the Kentucky Supreme Court, State of Ohio
and Joseph W. Testa, Tax Commissioner of Ohio v.
Great Lakes Minerals, LLC, Case No. 2018-SC0001610-T (June 14, 2018) is unreported and
reproduced at App. 16–17. The Kentucky Supreme
Court Order Holding Action in Abeyance, State of Ohio
and Joseph W. Testa, Tax Commissioner of Ohio v.
Great Lakes Minerals, LLC, Case No. 2018-SC0001610-T (Mar. 14, 2019) is unreported and
reproduced at App. 18-19. The Kentucky Supreme
Court Opinion Reversing the Greenup Circuit Court
Order and Remanding for Dismissal is reported at 597
S.W.3d 169 and reproduced at App. 1–11. The
Kentucky Supreme Court Order Denying the
Petitioner’s Motion for Rehearing and/or Modification,
State of Ohio and Joseph W. Testa, Tax Commissioner
of Ohio v. Great Lakes Minerals, LLC, Case No. 2018SC-0001610-TG (Apr. 30, 2020) is unreported and
reproduced at App. 14-15.
JURISDICTION
The Kentucky Supreme Court issued its Opinion on
December 19, 2019, and denied Rehearing and/or
Modification of Opinion on April 30, 2020. This Court
has jurisdiction pursuant to 28 U.S.C. § 1257. The

2
Petition for Writ of Certiorari has been timely filed in
accordance with Rule 13.1 of the United States
Supreme Court Rules.
STATUTORY AND RULE PROVISIONS
INVOLVED
The Kentucky Revised Statutes, Chapter 418
provides in relevant part:
K.R.S. 418.040: Plaintiff may obtain
declaration of rights if actual controversy
exists
In any action in a court of record of this
Commonwealth having general jurisdiction
wherein it is made to appear that an actual
controversy exists, the plaintiff may ask for a
declaration of rights, either alone or with other
relief; and the court may make a binding
declaration of rights, whether or not
consequential relief is or could be asked.
The Kentucky Rules of Civil Procedure provides in
relevant part:
CR 60.03 Independent actions
Rule 60.02 shall not limit the power of any court
to entertain an independent action to relieve a
person from a judgment, order or proceeding on
appropriate equitable grounds. Relief shall not
be granted in an independent action if the
ground of relief sought has been denied in a
proceeding by motion under Rule 60.02, or would

3
be barred because not brought in time under the
provisions of that rule.
The Revised Ohio Statutory Code, Chapter 5751
provides in relevant part:
O.R.C. 5751.01 Definitions
As used in this chapter:
(G) “Taxable gross receipts” means gross
receipts sitused to this state under section
5751.033 of the Revised Code.
O.R.C. 5751.02 Commercial activity tax;
commercial activities tax receipts fund . . .
(A) For the purpose of funding the needs of this
state and its local governments, there is hereby
levied a commercial activity tax on each person
with taxable gross receipts for the privilege of
doing business in this state. For the purposes of
this chapter, “doing business” means engaging
in any activity, whether legal or illegal, that is
conducted for, or results in, gain, profit, or
income, at any time during a calendar year.
Persons on which the commercial activity tax is
levied include, but are not limited to, persons
with substantial nexus with this state. The tax
imposed under this section is not a transactional
tax and is not subject to Public Law No. 86-272,
73 Stat. 555. The tax imposed under this section
is in addition to any other taxes or fees imposed
under the Revised Code. The tax levied under
this section is imposed on the person receiving
the gross receipts and is not a tax imposed

4
directly on a purchaser. The tax imposed by this
section is an annual privilege tax for the
calendar year that, in the case of calendar year
taxpayers, is the annual tax period and, in the
case of calendar quarter taxpayers, contains all
quarterly tax periods in the calendar year. A
taxpayer is subject to the annual privilege tax
for doing business during any portion of such
calendar year.
O.R.C. 5751.033 Situs of gross receipts
For the purpose of this chapter, gross receipts
shall be sitused to this state as follows:
(E) Gross receipts from the sale of tangible
personal property shall be sitused to this state if
the property is received in this state by the
purchaser. In the case of delivery of tangible
personal property by motor carrier or by other
means of transportation, the place at which such
property is ultimately received after all
transportation has been completed shall be
considered the place where the purchaser
receives the property. For purposes of this
section, the phrase “delivery of tangible personal
property by motor carrier or by other means of
transportation” includes the situation in which
a purchaser accepts the property in this state
and then transports the property directly or by
other means to a location outside this state.
Direct delivery in this state, other than for
purposes of transportation, to a person or firm
designated by a purchaser constitutes delivery to
the purchaser in this state, and direct delivery

5
outside this state to a person or firm designated
by a purchaser does not constitute delivery to
the purchaser in this state, regardless of where
title passes or other conditions of sale.
42 U.S.C.A. § 1983 provides in relevant part:
42 U.S.C.A. § 1983:
deprivation of rights

Civil

action

for

Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress, except
that in any action brought against a judicial
officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall
not be granted unless a declaratory decree was
violated or declaratory relief was unavailable.
For the purposes of this section, any Act of
Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of
the District of Columbia.

6
STATEMENT OF THE CASE
The Petitioner, Great Lakes Minerals, LLC
(hereinafter referred to as “Great Lakes”), is a
Kentucky company engaged in the business of mineral
processing. App. 2, 22. Its office and mineral processing
plant is located in Greenup County, Kentucky and it
has no offices nor plants outside of the Commonwealth
of Kentucky.1 Id. Great Lakes conducts all of its
business within the Commonwealth of Kentucky and it
does not ship, deliver, or advertise any of its products
outside of the Commonwealth of Kentucky. Id. If an
individual or company wishes to purchase minerals
from Great Lakes, they must physically travel to Great
Lakes’ plant in Greenup County, Kentucky; pay for the
product in Greenup County, Kentucky; and take full
physical possession of said product in Greenup County,
Kentucky. Id. After a customer purchases and takes
possession of the product in Kentucky, Great Lakes has
no further property rights or interests in same, nor
does it control, facilitate, or assist in the customers’
transportation of their property after purchase. Id.
Rather, the entirety of Great Lakes’ business
transactions begin and end within the borders of the
Commonwealth of Kentucky.
In March 2016, the Revenue Department for the
State of Ohio learned through an unaffiliated Ohio
business’ tax return that the third party Ohio business

1

Great Lakes was formed under the laws of the State of Delaware
on March 10, 1999, but has operated in the Commonwealth of
Kentucky since April 2, 1999 with its principle office in Wurtland,
Greenup County, Kentucky since July 18, 2003.

7
traveled to Kentucky to purchase minerals from Great
Lakes and later used the purchased minerals in its
business in Ohio. App. 22. Thereafter, the Ohio Tax
Commissioner, Joseph W. Testa, notified Great Lakes
that the State of Ohio was assessing Great Lakes a
Commercial Activities Tax (hereinafter the “CAT”)
based on the Kentucky company’s entire gross receipts
as though it was an Ohio business conducting all
business in Ohio. App.20–31. In addition, the
assessment was applied retroactively for the previous
seven (7) years from January 1, 2009 until September
30, 2016, and included all penalties and interest in the
assessment. App. 29-31.
Great Lakes objected to the assessment and
maintained that it did not conduct any business in
Ohio nor did it have the necessary, minimum contacts
nor a substantial nexus with the State of Ohio to be
subject to the Ohio CAT. App. 2–3, 20–28. Great Lakes
maintained that there must be “some definite link,
some minimum connection, between a state and the
person, property or transaction it seeks to tax.” Miller
Brothers Co. v. Maryland, 347 U.S. 340, 344–45 (1954);
App. 22–25. The connection must be one in which the
taxed entity has purposefully “availed” itself of the
protection and services of the taxing state. South
Dakota v. Wayfair, Inc., 138 S.Ct. 2080 (2018);
International Harvester Co. v. Dept. of Treasury, 322
U.S. 340 (1944); App. 22–25. Great Lakes contended
that it was a Kentucky company conducting business
exclusively in Kentucky and therefore did not meet this
standard for taxation. App. 20–28. Great Lakes further
argued that the Ohio CAT statutory scheme explicitly
excludes its application to the Kentucky company

8
because all deliveries of the Kentucky company’s
products occur outside the State of Ohio, thus making
the Ohio CAT inapplicable. Id. In fact, the Ohio CAT
specifically acknowledges that a situation such as the
case at bar is not taxable. O.R.C. 5751.033(E) states
the following:
O.R.C. 5751.033: Situsing of gross receipts
to Ohio
For the purposes of this chapter, gross receipts
shall be sitused to this state as follows:
(E) Gross receipts from the sale of tangible
personal property shall be sitused to this state if
the property is received in this state by the
purchaser. In the case of delivery of tangible
personal property by motor carrier or by other
means of transportation, the place at which such
property is ultimately received after all
transportation has been completed shall be
considered the place where the purchaser
receives the property. For purposes of this
section, the phrase “delivery of tangible personal
property by motor carrier or by other means of
transportation” includes the situation in which
a purchaser accepts the property in this state
and then transports the property directly or by
other means to a location outside this state.
Direct delivery in this state, other than for
purposes of transportation, to a person or firm
designated by a purchaser constitutes delivery to
the purchaser in this state, and direct delivery
outside this state to a person or firm
designated by a purchaser does not

9
constitute delivery to the purchaser in this
state, regardless of where title passes or
other conditions of sale. O.R.C. 5751.033(E)
(emphasis added); App. 24–25.
Accordingly, as all of Great Lakes’ products are subject
to “direct delivery outside [the State of Ohio]” and “title
passes” entirely within the Commonwealth of
Kentucky, Great Lakes does not enjoy a “privilege of
doing business in [the State of Ohio]” in order to be
subject to the foreign, Ohio CAT. O.R.C. 5751.02,
5751.033; App. 23–25.
Despite these objections, the Ohio Tax
Commissioner launched an aggressive campaign to
force Great Lakes to pay the CAT tax. App. 22–24. Not
only did the Tax Commissioner send aggressive letters
and make phone calls to Great Lakes’ facility in
Greenup County, Kentucky, but the Commissioner also
sent his agents physically across state lines to Great
Lakes’ property in Greenup County, Kentucky to
demand payment of the CAT. Id. It was only then, after
these aggressive and continuous tactics that Great
Lakes reluctantly paid the CAT, a foreign tax the
Kentucky company did not owe. Id.
On April 6, 2017 the State of Ohio issued a Notice
of Assessment acknowledging Great Lakes’ payment of
the tax but claimed that it must also pay an
“Assessment Penalty on Tax” (hereinafter the
“Penalty”). App. 29-31. To date, the State of Ohio
continues to seek recovery of this Penalty, and levies
the CAT and all associated penalties and interest
against Great Lakes each quarter of each year for those
gross receipts sitused in the State of Ohio—despite

10
Great Lakes not having a nexus with the State of Ohio
nor minimum contacts with the State. App. 20–28.
The State of Ohio certainly has the constitutional
authority to tax businesses and business activities
within its own borders, but it does not have the
constitutional authority to tax a Kentucky company for
conducting business exclusively in Kentucky. Unlike
the Due Process the Commonwealth of Kentucky
affords a Kentucky resident, the State of Ohio does not
permit an out-of-state business to promptly assert its
constitutional rights or challenges regarding minimum
contacts nor present a nexus argument under the
United States Constitution until after it endures
several years of administrative litigation with the tax
and penalties accruing throughout the process.
Compare Berthelsen v. Kane, 759 S.W.2d 831 (Ky. App.
1988) (holding that an initial evidentiary hearing must
occur to determine if an out-of-state resident is subject
to jurisdiction), with O.R.C. 5751.09, et seq. (requiring
an individual challenging the CAT to undergo several
layers of administrative proceedings, including the
Board of Tax Appeals), and MCI Telecommunications
Corp. v. Limbach, 625 N.E.2d 597 (Ohio 1994) (holding
that the Board of Tax Appeals may not determine the
constitutional issues).
Under Ohio law, an out-of-state resident is required
to undergo approximately five to six years of
administrative appeals, through both the Tax
Commissioner and the Board of Tax Appeals, before it
can finally assert its constitutional minimum contacts
defense before an Ohio court. O.R.C. 5751.09, et seq.;
see also MCI Telecommunications Corp., 625 N.E.2d

11
597. And while the matter is pending, the State of Ohio
and its Tax Commissioner continue taxing the out-ofstate business each year, including all penalties and
interest, without ever offering the out-of-state business
a hearing to determine if it had the sufficient minimum
contacts necessary to be taxed in the first place. In
contrast, the Commonwealth of Kentucky has a process
for declaratory judgments to determine the rights of
the parties immediately, which includes if there are
sufficient minimum contacts. See K.R.S. 418.080. This
process is fair and equitable to in-state and out-of-state
businesses alike as K.R.S. 49.250 provides that a
business aggrieved by a final order of the tax
commission is entitled to a stay of collection until the
issue is resolved by the Court. See K.R.S. 49.250.
On July 10, 2017, Great Lakes filed suit in Greenup
County Circuit Court in Wurtland, Kentucky asserting
three causes of action: (1) a Petition to the Kentucky
Court for Declaratory Judgment declaring that Great
Lakes did not have the necessary “minimum contacts”
or a substantial nexus with the State of Ohio in order
to be subject to the Ohio CAT and its Penalty under the
United States Constitution; (2) a claim pursuant to CR
60.03 of the Kentucky Rules of Civil Procedure, that
the Kentucky company should be relieved from having
to participate in or be subject to the State of Ohio tax
proceedings with respect to the CAT and its Penalty;
and (3) a 42 U.S.C.A. 1983 claim against the State of
Ohio’s Tax Commissioner, Joseph W. Testa, in his
individual capacity, for actions taken by him in the
Commonwealth of Kentucky that were beyond the
authority granted to him by the State of Ohio and the
United States Constitution. App. 20–28. In response to

12
the suit, the State of Ohio and its Tax Commissioner
filed a Motion to Dismiss the action on the basis of
sovereign immunity, which the Greenup Circuit Court
denied on February 16, 2018. App. 12–13.
The State of Ohio and Commissioner Testa then
filed a Notice of Interlocutory Appeal to the Kentucky
Court of Appeals on March 16, 2018 with respect to
whether sovereign immunity barred Great Lakes’
action against the State of Ohio and its Tax
Commissioner in his official and individual capacities.
App. 16–17. The interlocutory appeal was then
transferred to the Kentucky Supreme Court on June
14, 2018. Id. After the parties briefed the interlocutory
appeal issue of sovereign immunity, the Kentucky
Supreme Court issued an Order on March 14, 2019
holding the matter in abeyance pending this Court’s
final determination of Franchise Tax Bd. of California
v. Hyatt, 138 S.Ct. 2710, No. 17-1299 (2018). App. 1819. On May 13, 2019, this Court issued its final
Opinion in Hyatt, and the Kentucky Supreme Court
granted the parties the right to file supplemental briefs
with respect to the significance of Hyatt, if any, to the
case at bar. See Franchise Tax Bd. of California v.
Hyatt, 129 S.Ct. 1485 (2019).
Following the parties’ supplemental briefing, the
Kentucky Supreme Court issued an Opinion Reversing
the denial of dismissal by the Greenup Circuit Court
and remanded the above styled action back to said
Court for dismissal. App. 1–11. The Kentucky Supreme
Court held that pursuant to this Court’s May 13, 2019
holding in Hyatt, the State of Ohio and its Tax
Commissioner in his official capacity were protected

13
from all manner of suit based on sovereign immunity.
As such, the Court ordered Great Lakes’ 42 U.S.C.A.
1983 action against the State of Ohio and its Tax
Commissioner in his official capacity, as well as the CR
60.03 claim, dismissed as barred by sovereign
immunity.2 Id. With respect to Great Lakes’ 42
U.S.C.A. 1983 action against the Ohio Tax
Commissioner, in his individual capacity, for actions
taken within the Commonwealth of Kentucky, the
Kentucky Supreme Court dismissed said claim on the
basis of comity. Id.
REASONS FOR GRANTING THE WRIT
I.

THE COURT SHOULD GRANT REVIEW TO
DETERMINE IF HYATT EXTENDS A
STATE’S SOVEREIGN IMMUNITY TO
DECLARATORY AND/OR OTHER
EQUITABLE RELIEF AS WELL AS THE
INDIVIDUAL ACTING IN HIS INDIVIDUAL
CAPACITY.

Certiorari is warranted to determine if Hyatt bars
an action for Declaratory and/or other equitable relief
when Kentucky, Ohio and federal law all maintain that
sovereign immunity does not apply to declaratory and
injunctive relief, nor would it bar a claim against the
Tax Commissioner in his individual capacity.

2

In accordance with Rules of the Supreme Court of the United
States, Rule 35, Ohio Tax Commissioner Joseph W. Testa in his
official capacity has been substituted with Ohio Tax Commissioner
Jeff McClain, who was appointed to the office in January 2019. As
there is a 42 U.S.C. 1983 claim against Joseph W. Testa in his
individual capacity, he remains a party to the action.

14
A. Kentucky Law.
In the Commonwealth of Kentucky, K.R.S. 418.040
codifies Kentucky law with respect to Declaratory
Judgments. It states the following:
K.R.S. 418.040: Plaintiff may obtain
declaration of rights if actual controversy
exists
In any action in a court of record of this
Commonwealth having general jurisdiction
wherein it is made to appear that an actual
controversy exists, the plaintiff may ask for a
declaration of rights, either alone or with other
relief; and the court may make a binding
declaration of rights, whether or not
consequential relief is or could be asked. K.R.S.
418.040.
The Kentucky Legislature enacted K.R.S. 418.080 to
clarify that the purpose of K.R.S. 418.040 is to “make
courts more serviceable to the people by way of settling
controversies, and affording relief from uncertainty and
insecurity with respect to rights, duties and relations.”
K.R.S. 418.080. As such, K.R.S. 418.040 is to be
“liberally interpreted and administered.” K.R.S.
418.080.
The Kentucky Supreme Court held in
Commonwealth v. Kentucky Retirement Systems, 396
S.W.3d 833 (Ky. 2013) that sovereign immunity is
inapplicable to a petition for Declaratory Judgment. In
doing so, the Court reasoned that the purpose of
sovereign immunity was to protect the financial
resources of a state and ensure that a states’ resources

15
“cannot be compelled as recompense for state action.”
Id. at 836. A Declaratory Judgment action, however, is
“not a claim for damages, but rather it is a request that
the plaintiff’s rights under the law be declared. There
is no harm to state resources from a declaratory
judgment.” Id. at 838. As such, an action for
Declaratory Relief is “qualitatively different” and
“[s]overeign immunity does not apply.” Id.; see also Cty.
Employees Retirement System v. Frontier Housing, Inc.,
536 S.W.3d 712, 714 (Ky. App. 2017) (“We do not have
a government that is beyond scrutiny. If sovereign
immunity can be used to prevent the state, through its
agencies, from being required to act in accordance with
the law, then lawlessness results.”) (citing Kentucky
Retirement Systems, 396 S.W.3d at 839).
B. Ohio Law.
Similar to Kentucky law, Ohio courts also hold that
sovereign immunity is not implicated with respect to
Declaratory Judgment actions against the State of
Ohio. See Cirino v. Ohio Bureau of Workers’
Compensation, 106 N.E.3d 41, 47 (Ohio 2018); Racing
Guild, Local 304 v. Ohio State Racing Comm’n, 503
N.E.2d 1025, 1028 (Ohio 1986); Friedman v. Johnson,
480 N.E.2d 82, 84 (Ohio 1985); State ex rel. Gelesh v.
State Med. Bd., 874 N.E.2d 1256, 1264 (Ohio App.
2007); Oakar v. Ohio Dept. of Mental Retardation, 623
N.E.2d 1296, 1299 (Ohio App. 1993); Columbus
Southern Power Co. v. Ohio Dept. of Transp., 579
N.E.2d 735, 739 (Ohio App. 1989); see also Victorian’s
Midnight Café L.L.C. v. Goodman, 2016 WL 6994983,
at *2 (Ohio App. Nov. 29, 2016); Cristino v. Ohio
Bureau of Workers’ Comp., 2014 WL 1347158, at *3

16
(Ohio App. Mar. 31, 2014); Interim Healthcare of
Columbus, Inc. v. State Dep’t of Admin., 2008 WL
2025153, at *3 (Ohio App. May 6, 2008); Help the
Children v. Dep’t of Liquor Control, 1996 WL 11280
(Ohio App. Jan. 11, 1996); Helms v. Ohio EPA, 2015
WL 6549331 (Ohio Ct. Claims Oct. 23, 2015).
The Supreme Court of Ohio held in Ohio Hosp.
Assn. v. Ohio Dept. of Human Services, 579 N.E.2d 695
(Ohio 1991) that a claim for equitable relief—including
Declaratory, Injunctive, and monetary—against a state
or state agency is not barred by the doctrine of
sovereign immunity. The Ohio Supreme Court
reasoned that “[d]amages are given to the plaintiff to
substitute for a suffered loss, whereas specific remedies
‘are not substitute remedies at all, but attempt to give
the plaintiff the very thing to which he was entitled.’”
Id. at 700 (citing Bowen v. Massachusetts, 487 U.S. 879
(1988)). The Court held that “sovereign immunity is not
applicable” to claims for equitable relief. Id.; see also
Santos v. Ohio Bureau of Workers’ Compensation, 801
N.E.2d 441, 445 (Ohio 2004). In February 2020, the
Ohio Supreme Court again held that “sovereign
immunity does not bar claims for equitable relief, only
for legal relief.” Cleveland v. Ohio Bureau of Workers’
Compensation, 2020 WL 557311, at *2 (Ohio Feb. 5,
2020).
C. Federal Law.
The Court has long recognized that sovereign
immunity does not bar a private action against a state
and/or its entities for abusive state action. Under
federal law, a state or state official may be sued
pursuant to 42 U.S.C.A. 1983 for both declaratory and

17
injunctive relief. See Timmerman v. Brown, 528 F.2d
811, 814 (1975), rev’d on other grounds sub nom. Leeke
v. Timmerman, 454 U.S. 83 (1981); Hafer v. Melo, 502
U.S. 21 (1991); Kentucky v. Graham, 473 U.S. 159, 165
(1985). A state official may also be sued in their
individual capacity for monetary damages. Lewis v.
Clarke, 137 S.Ct. 1285 (2017) (“Nor have we ever held
that a civil rights suit under 42. U.S.C. 1983 against a
state officer in his individual capacity implicates the
Eleventh Amendment and a State’s sovereign
immunity from suit.”). Both causes of action
indisputably may be brought in a state court. See
Howlett v. Rose, 496 U.S. 356 (1990); Zinermon v.
Burch, 494 U.S. 113 (1990) (holding that the existence
of a concurrent state remedy is not a bar to a 1983
claim).
Like Ohio and Kentucky, federal law also prohibits
42 U.S.C. 1983 suits for monetary damages against a
sovereign because of the threat to “public funds in the
state treasury.” Hafer, 502 U.S. at 29. Declaratory
and/or other equitable relief, however, are
fundamentally different remedies than monetary
damages and they pose no threat to the state treasury.
Perez v. Ledesma, 401 U.S. 82, 124 (1971) (J. Brennan,
concurrence) (“A declaratory judgment, on the other
hand, is merely a declaration of legal status and rights;
it neither mandates nor prohibits state action.”); see
also Skelly Oil Co. v. Phillips Petroleum Co., 339 U.S.
667, 671–72 (1950) (“The Declaratory Judgment Act
allowed relief to be given by way of recognizing the
plaintiff’s right even though no immediate enforcement
of it was asked.”). This is precisely why, under federal
law, an individual can petition for both Declaratory and

18
Injunctive Relief against a state and its officials in
their official capacity, as well as a claim for monetary
damages against a state official in his individual
capacity.
D. Franchise Tax Board of California v.
Hyatt
Under Kentucky, Ohio and federal law sovereign
immunity cannot bar a petition for Declaratory and/or
other equitable relief against a state and its officials in
their official capacity. The question before the Court
then, is whether the Court’s decision in Franchise Tax
Board of California v. Hyatt, 139 S. Ct. 1485 (2019)
now overrules prior Kentucky, Ohio and federal law to
bar the entirety of Great Lakes’ action.
In Hyatt, the Court explicitly overruled Nevada v.
Hall, 440 U.S. 410 (1979) and held that “States retain
their sovereign immunity from private suits brought in
the courts of other States.” 139 S.Ct. at 1492. In doing
so, the Court dismissed a private, Nevada action
against California because California—under its own
laws—was sovereignly immune from suit. Id. at 1499.
On a basic level, the case at hand is similar to Hyatt
by reason of the fact that a private individual or
company alleges tortious conduct by a state agency in
collection a tax. Hyatt, 139 S.Ct. 1485 (2019). The
distinction, however, arises from the type of relief
sought and the extent to which the parties herein
recognize sovereign immunity as a bar to same. While
in Hyatt the plaintiff sought compensatory damages
against a state, the Petitioner in the case at bar seeks
Declaratory and equitable relief against the State of

19
Ohio and its Tax Commissioner in his official
capacity—claims that under Kentucky, Ohio and
federal law are not barred by sovereign immunity
because they do not threaten the states’ treasury.
Accordingly, the Court’s decision in Hyatt cannot serve
as a bar to same.
Allowing a Kentucky court to determine whether
Great Lakes has minimum contacts or a substantial
nexus with the State of Ohio is the equitable, expedient
ruling. This is particularly equitable given that the
agents for the State of Ohio physically ventured into
the sovereignty of the Commonwealth of Kentucky to
collect the tax. App. 23. It is simply not equitable for
Ohio agents to come to Kentucky for what benefits
them, but then claim that it is unfair to require them
to come to Kentucky to determine if their actions are
constitutional.
Moreover, neither the State of Ohio nor its Tax
Commissioner in his official or individual capacity are
prejudiced by allowing a Kentucky court to determine
the issue of minimum contacts because Kentucky
courts will serve as the ultimate adjudicator of this
question. Any judgment obtained by the State of Ohio
and its Tax Commissioner will have to be brought to
Kentucky and enforced under Kentucky law as valid.
The sole issue is whether Kentucky courts can decide
the minimum contacts question now or years from now.
During the Court’s oral argument in Franchise Tax
Board of California v. Hyatt, 139 S.Ct. 1485 (2019), the
Court posed the question of whether Hyatt could have
brought an action in his home state of Nevada to
determine the factual premises of his case, i.e. whether

20
or not he was a resident of California, or whether he
had tax liability to California: “Justice Sotomayor:
Could the Nevada court have adjudicated the factual
premises? Could he have brought some sort of suit in
Nevada to adjudicate whether he was a resident of
California or not or to find that he has no tax liability?”
Transcript of Oral Argument at 47–48, Franchise Tax
Board of California v. Hyatt, 139 S.Ct. 1485 (2019) (171299). Counsel of record, however, only responded with
respect to Nevada federal courts and the Tax
Injunction Act, which is not applicable to the case at
bar. Id. Counsel did not respond as related to state
court. Id.
The case at hand is the situation the Court posed in
its question to counsel in Hyatt, however, this action
was brought in state court. It is a Kentucky action for
Declaratory and other equitable relief to determine
whether a Kentucky company has minimum contacts
or a substantial nexus with the State of Ohio to be
subject to a foreign tax. The Tax Injunction Act has no
applicability to the case at bar, nor does Kentucky,
Ohio and federal law prohibit this action on the basis
of sovereign immunity. To allow a Kentucky court to
determine the minimum contacts issue now, rather
than years from now, benefits all parties by preventing
unnecessary years of litigation costs. If Respondents do
not want to participate in a timely hearing now to
adjudicate the matter, they should not be allowed to try
to do so in the future by bringing their own action in
the Commonwealth of Kentucky.

21
E. Kentucky Civil Rule 60.03.
Much like Declaratory Relief, Kentucky Rule of
Civil Procedure 60.03 provides another form of
equitable relief. CR 60.03 states the following:
Rule 60.03 Independent Actions
Rule 60.02 shall not limit the power of any court
to entertain an independent action to relieve a
person from a judgment, order or proceeding on
appropriate equitable grounds. Relief shall not
be granted in an independent action if the
ground of relief sought has been denied in a
proceeding by motion under Rule 60.02, or would
be barred because not brought in time under the
provisions of that rule. CR 60.03.
By this language, CR 60.03 provides for an
equitable proceeding where the focus of the
independent action is on the equitable rights of the
person or entity being relieved of the proceeding. Id. A
claim of sovereign immunity should have no effect on
an action under CR 60.03, because it does not threaten
a state’s public treasury and only seeks to determine
the rights of a given petitioner. This is a Kentucky
matter, involving a Kentucky business, concerning
entirely Kentucky transactions that occur within the
borders of the Commonwealth of Kentucky. As such,
the action should go forth and be decided by a
Kentucky court.

22
II.

THE COURT SHOULD GRANT REVIEW
BECAUSE A STATE MAY NOT REFUSE TO
ENTERTAIN A PROPERLY PLEAD
FEDERAL CLAIM.

In addition to its equitable claims, Great Lakes
brought a federal cause of action pursuant to 42
U.S.C.A. 1983 against Commissioner Testa in his
individual capacity for monetary relief. App. 20–28.
Great Lakes alleged that by crossing state lines to
physically enter Great Lakes’ property and demand
payment of a foreign tax that Testa knew or should
have known was not owed, Commissioner Testa
exceeded the authority of his office and violated Great
Lakes’ rights guaranteed under federal law, the United
States Constitution and applicable state law. App. 25–
26. The Kentucky Supreme Court, however, dismissed
the 42 U.S.C. 1983 claim on principles of comity.3 App.
7–11. Certiorari is warranted because a state may not
refuse to entertain a properly plead federal claim.
A 42 U.S.C. 1983 federal cause of action can be
asserted in both federal and state courts. Howlett v.
Rose, 496 U.S. 356 (1990); see also Haywood v. Drown,
556 U.S. 729 (2009); Nevada v. Hicks, 533 U.S. 353
(2001); Zinermon v. Burch, 494 U.S. 113 (1990); Felder
v. Casey, 487 U.S. 141 (1988). Pursuant to the
3

The Kentucky Supreme Court could not explicitly dismiss the 42
U.S.C. 1983 claim against the Ohio Tax Commissioner on the basis
of sovereign immunity. Lewis v. Clarke, 137 S.Ct. 1285 (2017)
(“Nor have we ever held that a civil rights suit under 42 U.S.C.
1983 against a state officer in his individual capacity implicates
the Eleventh Amendment and a State’s sovereign immunity from
suit.”).

23
Supremacy Clause of the United States Constitution,
States cannot refuse to entertain a properly plead
federal claim. Haywood, 556 U.S. at 734–35, 741–42;
Felder, 487 U.S. at 153; see also Johnson v. Fankell,
520 U.S. 911 (1997); Martinez v. State of California,
444 U.S. 277 (1980). This is true regardless of existing
state laws, rules or policies that conflict with a federal
cause of action. See Haywood, 556 U.S. at 734–35,
741–42.
In the case at hand, the Kentucky Supreme Court
cited to this Court’s decision in Fair Assessment in Real
Estate Ass’n, Inc. v. McNary, 454 U.S. 100 (1981) to
support its dismissal of Great Lakes’ 42 U.S.C. 1983
action against Commissioner Testa in his individual
capacity on principles of comity. The McNary decision,
however, held that 42 U.S.C. 1983 actions were barred
in federal courts on principles of comity, so long as the
state court provided a plain, adequate, and complete
remedy to assert federal rights. 454 U.S. at 116.
For the case at bar, it is clear that the State of Ohio
does not provide such a remedy for Great Lakes’ 42
U.S.C. 1983 claim. In fact, under the Ohio statutory
scheme the Kentucky company is unable to assert its
constitutional minimum contacts defense until after
several years of litigating through the entirety of Ohio’s
administrative appeals process. See O.R.C. 5751.09
(requiring an individual challenging the CAT to
undergo several layers of administrative proceedings,
including the Board of Tax Appeals); MCI
Telecommunications Corp. v. Limbach, 625 N.E.2d 597
(Ohio 1994) (holding that the Board of Tax Appeals
may not determine constitutional issues). It would take

24
approximately five to six years to fully complete the
State of Ohio’s administrative proceedings to then be
able to assert the first constitutional challenge to the
lowest Ohio court. See Trial Ct. R. DVD, dated January
11, 2018. As such, the Kentucky Supreme Court cannot
employ principles of comity to dismiss a properly plead
cause of action, especially when there is no adequate
alternative. Supra.
III.

THE COURT SHOULD GRANT REVIEW
BECAUSE THE STATE OF OHIO AND ITS
TAX COMMISSIONER’S ACTIONS WILL
DETRIMENTALLY AFFECT BUSINESSES
ACROSS THE UNITED STATES.

Certiorari is warranted because the State of Ohio’s
unique taxing scheme that unduly taxes businesses
outside of Ohio creates an unfair economic advantage
for businesses within the state and for the state itself.
The rationale that if a product ultimately ends up in
the State of Ohio, then Ohio can tax the entire gross
sales of every business that touched the product and/or
had a hand in the distribution, creates a practical
absurdity. While currently only a few states have a
CAT tax, if they began applying Ohio’s rationale, as a
practical matter no business in the United States could
survive as they could be taxed by every
state—regardless of whether the business had
minimum contacts or a substantial nexus with each
taxing state.
The State of Ohio and Commissioner Testa levied
the CAT against the gross receipts of Great Lakes for
2009–2016, then continues to levy the tax each year
thereafter. See O.R.C. 5751.02(A). From a business

25
standpoint, Ohio’s taxing of “gross receipts” means that
when a company purchases materials and sells them,
the company is taxed on the sale instead of the profit of
the sale for the “privilege of doing business in the State
of Ohio.” This is so in Ohio even when the taxed
company does not enjoy such a privilege. See id. For an
in-state business the tax is understandable, but for an
out-of-state business, this is simply an additional cost
without any benefit. For companies that profit on the
remarketing or margin of their sales, the added tax on
the gross receipts becomes far more pronounced and
creates a nearly unsurmountable business
disadvantage to the out-of-state business. Such an
application of the Ohio CAT simply cannot be
constitutional.
In fact, the very language of the Ohio CAT implies
that it seeks to tax out-of-state businesses beyond its
constitutional limits. O.R.C. 5751.02 states that:
“Persons on which the commercial activity tax is levied
include, but are not limited to, persons with
substantial nexus with this state.” O.R.C. 5751.02(A)
(emphasis added). In actuality, the law requires that
Ohio may only levy its CAT against those businesses
with a substantial nexus to the State of Ohio. Miller
Brothers Co. v. Maryland, 347 U.S. 340, 344–45 (1954);
see also South Dakota v. Wayfair, Inc., 138 S.Ct. 2080,
2093 (2018); International Harvester Co. v. Dept. of
Treasury, 322 U.S. 340 (1944). To the extent that Ohio
levies the CAT against businesses without a
“substantial nexus” to Ohio—as is the case here with
Great Lakes—the State of Ohio and its Tax
Commissioner have exceeded their authority under the

26
Constitution and are detrimentally affecting businesses
across the United States.
IV.

THE COURT SHOULD GRANT REVIEW
BECAUSE THE OHIO CAT IS
UNCONSTITUTIONALLY LEVIED ON
GREAT LAKES.

It is a fundamental tenant of American
jurisprudence that in order to constitutionally tax and
not violate the Due Process Clause of the United States
Constitution, a state may only tax a foreign business
that has “some definite link, some minimum connection
between [said taxing] state and the person, property or
transaction it seeks to tax.” Miller Brothers Co. v.
Maryland, 347 U.S. 340, 344–45 (1954); see also North
Carolina Dept. of Revenue v. The Kimberley Rice
Kaestner 1992 Family Trust, 139 S.Ct. 2213, 2220
(2019); MeadWestvaco Corp. ex rel. Mead Corp. v.
Illinois Dept. of Revenue, 553 U.S. 16, 24 (2008);
American Oil Co. v. Neill, 380 U.S. 451, 458 (1965);
Scripto, Inc. v. Carson, 362 U.S. 207, 210–11 (1960).
When determining whether a tax is constitutionally
levied, the Court “concerns itself with the practical
operation of the tax, that is, substance rather than
form [and] requires [the court] to determine the
ultimate effect of the law as applied and enforced by a
State.” American Oil Co., 380 U.S. at 455.
In the case at bar, the entirety of Great Lakes’
business transactions begin and end within the borders
of the Commonwealth of Kentucky. App. 2, 20–28. The
Kentucky company conducts all of its business within
the Commonwealth of Kentucky and does not ship,
deliver, or advertise any of its products outside of its

27
home state of Kentucky. Id. If an individual or
company wishes to purchase minerals from Great
Lakes, they must physically travel to Great Lakes’
plant in Greenup County, Kentucky themselves; pay
for the product in Greenup County, Kentucky; and take
full physical possession of said product in Greenup
County, Kentucky. Id. Thereafter, Great Lakes loses all
legal title to said product and the customer is free to
deliver their own property wherever they choose. See
id. Even if Great Lakes knew or was able to determine
if its customers would transport their purchased
product back to Ohio, the Court has long held that
knowledge that a product may ultimately end up in a
foreign state is not enough to meet the burden of due
process. See, e.g., American Oil Co., 380 U.S. at 457.
(“The mere fact that [the taxed party] knew that [the
product] was to be imported into Idaho merits little
discussion.”). Therefore, the basic right that is sought
to be protected is to be able to defend yourself from
unlawful acts in your own state.
The Court’s decision in Franchise Tax Bd. of
California v. Hyatt, 129 S.Ct. 1485 (2019) clearly
prohibits an individual or business from using the
courts of its home state to offensively seek monetary
redress against another state, but the question in this
case is whether an individual or business can file a
defensive equitable action to prohibit unconstitutional
wrongs being committed against it in its home state.
The equitable resolution and decision based upon the
precedent of each of the states involved and the federal
courts, is that Great Lakes should be permitted to
defend itself in Wurtland, Kentucky.

28
CONCLUSION
For the foregoing reasons, the Petitioner, Great
Lakes Minerals, LLC, respectfully requests that the
Court grant the Petition for Certiorari.
Respectfully submitted,
THOMAS D. BULLOCK
Counsel of Record
ROBERT V. BULLOCK
J. ROSS STINETORF
BULLOCK & COFFMAN, LLP
234 North Limestone
Lexington, Kentucky 40507
Telephone: (859) 225-3939
Facsimile: (859) 225-5748
Tbullock@bullockcoffman.com
Rstinetorf@bullockcoffman.com
Counsel for the Petitioner

